No. _________
______________________________
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
______________________________
KEVIN HALL, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.
______________________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
______________________________
APPENDIX
______________________________

ANGELA H. DOWS
Cory Reade Dows & Shafer
1333 North Buffalo Drive, Suite 210
Las Vegas, NV 89128
Telephone: (702) 794-4411
Facsimile: (702) 794-4421

Counsel of record for Petitioner
KEVIN HALL

APPENDIX A
ORDER OF THE
NINTH CIRCUIT COURT OF APPEALS
OCTOBER 28, 2020

2

Case: 17-10390, 10/28/2020, ID: 11874738, DktEntry: 29, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
OCT 28 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

17-10390

D.C. No.
2:14-cr-00321-GMN-NJK-1
District of Nevada,
Las Vegas

KEVIN HALL,
ORDER
Defendant-Appellant.
Before:

McKEOWN, RAWLINSON, and FRIEDLAND, Circuit Judges.

Appellee’s motion to dismiss this appeal in light of the valid appeal waiver
(Docket Entry No. 22) is granted. See United States v. Harris, 628 F.3d 1203,
1205 (9th Cir. 2011) (knowing and voluntary appeal waiver whose language
encompasses the right to appeal on the grounds raised is enforceable). Contrary to
appellant’s contention, because he waived the right to appeal any aspect of his
conviction and within-Guidelines sentence, including the manner in which his
sentence was determined, the appeal waiver encompasses his claims on appeal.
Further, the district court did not plainly err in its description of the appeal waiver
at the change of plea hearing. See United States v. Ma, 290 F.3d 1002, 1005 (9th
Cir. 2002). Finally, because Hobbs Act robbery is a crime of violence, appellant’s
conviction and sentence under 18 U.S.C. § 924(c) are not unconstitutional. See

Case: 17-10390, 10/28/2020, ID: 11874738, DktEntry: 29, Page 2 of 2

United States v. Dominguez, 954 F.3d 1251, 1260-61 (9th Cir. 2020).
DISMISSED.

2

17-10390

APPENDIX B
JUDGMENT IN A CRIMINAL CASE OF THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF NEVADA
SEPTEMBER 12, 2017

3

Case 2:14-cr-00321-GMN-NJK Document 305 Filed 09/12/17 Page 1 of 9
AO 245B (Rev. /1)

Judgment in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
District
of Nevada
__________
District
of __________
)
UNITED STATES OF AMERICA
JUDGMENT IN A CRIMINAL CASE
)
v.
)
)
KEVIN HALL
Case Number: 2:14-cr-00321-GMN-NJK-1
)
)
USM Number: 49285-048
)
Jennifer Waldo, CJA
)
Defendant’s
Attorney
)

THE DEFENDANT:

✔ pleaded guilty to count(s)
G

1, 6, 10, 12, and 13 of the Superseding Indictment

G pleaded nolo contendere to count(s)
which was accepted by the court.

G was found guilty on count(s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

Nature of Offense

Offense Ended

Count

18 USC §1951

Conspiracy to Interfere with Commerce by Robbery

7/13/2014

1s

18 USC §§1951 & 2

Interference with Commerce by Robbery & Aiding and Abetting

6/15/2014

6s

18 USC §§1951 & 2

Interference with Commerce by Robbery & Aiding and Abetting

7/13/2014

10s

8

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

of this judgment. The sentence is imposed pursuant to

G The defendant has been found not guilty on count(s)
✔ Count(s)
G

all remaining

G is

✔ are dismissed on the motion of the United States.
G

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

9/6/2017
Date of Imposition of Judgment

Signature of Judge

Gloria M. Navarro, Chief U.S. District Court
Name and Title of Judge

Date

September 12, 2017

Case 2:14-cr-00321-GMN-NJK Document 305 Filed 09/12/17 Page 2 of 9
AO 245B (Rev. /1)

Judgment in a Criminal Case
Sheet 1A
Judgment—Page

2

of

DEFENDANT: KEVIN HALL
CASE NUMBER: 2:14-cr-00321-GMN-NJK-1

ADDITIONAL COUNTS OF CONVICTION
Title & Section

Nature of Offense

Offense Ended

Count

18 USC §§1951 & 2

Interference with Commerce by Robbery & Aiding & Abetting

7/13/2014

12s

18 USC §§1951 & 2

Brandishing a Firearm
During and
Relation
to a Crime
Violence
Brandishing
a Firearm
andinin
Relation
to aofCrime
of& Aiding &

7/13/2014

13s

Abetting

8

Case 2:14-cr-00321-GMN-NJK Document 305 Filed 09/12/17 Page 3 of 9
AO 245B (Rev. /1) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

3

of

8

DEFENDANT: KEVIN HALL
CASE NUMBER: 2:14-cr-00321-GMN-NJK-1

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:

Seventy (70) months per count as to counts 1, 6, 10, and 12 to be served concurrently. Eighty-four (84) months as to count
13 to be served consecutive to the other counts.

✔ The court makes the following recommendations to the Bureau of Prisons:
G
The Court recommends the defendant be allowed to serve his term of incarceration at FCI Phoenix due to proximity to family
in Las Vegas.

✔ The defendant is remanded to the custody of the United States Marshal.
G

G The defendant shall surrender to the United States Marshal for this district:
G at

G a.m.

G p.m.

on

.

G as notified by the United States Marshal.
G The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
G before 2 p.m. on

.

G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
a

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 2:14-cr-00321-GMN-NJK Document 305 Filed 09/12/17 Page 4 of 9
AO 245B (Rev.06/17) Judgment in a Criminal Case
Sheet 3 — Supervised Release
Judgment—Page

DEFENDANT: KEVIN HALL
CASE NUMBER: 2:14-cr-00321-GMN-NJK-1

4

of

8

SUPERVISED RELEASE

Upon release from imprisonment, you will be on supervised release for a term of :

Three (3) years as to counts

1, 6, 10 and 12 concurrent. Supervised release for count 13 is five (5) years concurrent.

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.
7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court not to exceed 104 tests annually.
G The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if applicable)
✔ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
G
G You must comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
G You must participate in an approved program for domestic violence. (check if applicable)
G
✔ You must make restitution in accordance with 18 U.S.C. §§ 3663, 3663A, or any other statute authorizing restitution. (check if
applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

Case 2:14-cr-00321-GMN-NJK Document 305 Filed 09/12/17 Page 5 of 9
AO 245B (Rev. /1) Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page

5

of

8

DEFENDANT: KEVIN HALL
CASE NUMBER: 2:14-cr-00321-GMN-NJK-1

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

Case 2:14-cr-00321-GMN-NJK Document 305 Filed 09/12/17 Page 6 of 9

AO 245B(Rev. /1) Judgment in a Criminal Case
Sheet 3D — Supervised Release

Judgment—Page

6

of

8

DEFENDANT: KEVIN HALL
CASE NUMBER: 2:14-cr-00321-GMN-NJK-1

SPECIAL CONDITIONS OF SUPERVISION
1. No Contact - You must not communicate, or otherwise interact, with Keith Williams or Justin Loper, either directly or
through someone else, without first obtaining the permission of the probation office.
2. Access to Financial Information - You must provide the probation officer access to any requested financial information
and authorize the release of any financial information. The probation office will share financial information with the U.S.
Attorney's Office.
3. Debt Obligations - You shall not incur new credit charges, or open additional lines of credit without the approval of the
probation officer.
4. Search and Seizure - You shall submit to the search of your person, property, residence, or automobile under your
control by the probation officer or any other authorized person under the immediate and personal supervision of the
probation officer, without a search warrant to ensure compliance with all conditions of release.

AO 245B (Rev. /1)

Case 2:14-cr-00321-GMN-NJK Document 305 Filed 09/12/17 Page 7 of 9
Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties

7

Judgment — Page

of

8

DEFENDANT: KEVIN HALL
CASE NUMBER: 2:14-cr-00321-GMN-NJK-1

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
JVTA Assessment*

Assessment
TOTALS

$ 500.00

Fine

$

Restitution

$ 1,389.99

$

G The determination of restitution is deferred until

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

after such determination.

✔ The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
G
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Name of Payee

Restitution Ordered

Total Loss**

Restitution List attached

TOTALS

Priority or Percentage

$1,389.99

$

$

1,389.99

✔
G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

✔
G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

✔ the interest requirement is waived for the
G

G the interest requirement for the

G fine

G fine
G

1,389.99

✔ restitution.
G

restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

Case 2:14-cr-00321-GMN-NJK Document 305 Filed 09/12/17 Page 8 of 9

AO 245B (Rev. /1) -XGJPHQWLQD&ULPLQDO&DVH
Sheet 6 — Schedule of Payments

Judgment — Page

8

of

8

DEFENDANT: KEVIN HALL
CASE NUMBER: 2:14-cr-00321-GMN-NJK-1

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

✔ Lump sum payment of $
G

G
✔
G

not later than
in accordance with

1,889.99

G

C,

G

due immediately, balance due

D,

G

, or
E, or

B

G Payment to begin immediately (may be combined with

C

G Payment in equal

D

G Payment in equal

✔ F below; or
G

G C,

G D, or

G F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

G Payment during the term of supervised release will commence within

F

✔ Special instructions regarding the payment of criminal monetary penalties:
G

(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

Restitution must be paid at a rate no less than $25.00 per quarter during incarceration. Upon commencement of
supervision, the payments shall be at a rate of 10% of any gross income earned subject to adjustment by the
Court based on ability to pay.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

✔
Joint and Several
G

Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

$1,389.99 with defendants Justin Loper and Keith Williams in case number 2:14-cr-00321-GMN-NJK.

G The defendant shall pay the cost of prosecution.
G The defendant shall pay the following court cost(s):
G The defendant shall forfeit the defendant’s interest in the following property to the United States:
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

Case 2:14-cr-00321-GMN-NJK Document 305 Filed 09/12/17 Page 9 of 9

